IN THE SUPREME COURT OF THE UNITED STATES
No. 19-757
Arizona Libertarian Party and Michael Kielsky, Petitioners,
v.
Katie Hobbs, Arizona Secretary of State, Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 15(2) and Rule 33(2), I certify that Petitioners’
Reply to Respondent Secretary of State Katie Hobbs’ Brief in Opposition contains 6
pages, excluding the parts of the brief that are exempted pursuant to Supreme Court
Rule 33(1)(d). The Brief therefore complies with Rule 33(2).
/s/Oliver B. Hall
Oliver B. Hall
Counsel of Record
Center for Competitive Democracy
P.O. Box 21090
Washington, D.C. 20009
(202) 248-9294
oliverhall@competitivedemocracy.org
Counsel for Petitioners

